<html>
<title> - STATUS OF U.S. FOREIGN ASSISTANCE TO AFGHANISTAN IN ANTICIPATION OF THE U.S. TROOPS WITHDRAWAL</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





STATUS OF U.S. FOREIGN ASSISTANCE TO AFGHANISTAN IN ANTICIPATION OF THE 
                         U.S. TROOPS WITHDRAWAL

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 13, 2014

                               __________

                           Serial No. 113-97

                               __________

Printed for the use of the Committee on Oversight and Government Reform






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE

87-460 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 TONY CARDENAS, California
THOMAS MASSIE, Kentucky              STEVEN A. HORSFORD, Nevada
DOUG COLLINS, Georgia                MICHELLE LUJAN GRISHAM, New Mexico
MARK MEADOWS, North Carolina         Vacancy
KERRY L. BENTIVOLIO, Michigan
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

                   Subcommittee on National Security

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                JOHN F. TIERNEY, Massachusetts 
JOHN J. DUNCAN, JR., Tennessee           Ranking Minority Member
JUSTIN AMASH, Michigan               CAROLYN B. MALONEY, New York
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
TREY GOWDY, South Carolina           JACKIE SPEIER, California
CYNTHIA M. LUMMIS, Wyoming           PETER WELCH, Vermont
ROB WOODALL, Georgia                 MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan






















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 13, 2014...................................     1

                               WITNESSES

Mr. Donald L. Sampler, Jr., Assistant to the Administrator and 
  Director, Office of Afghanistan and Pakistan Affairs, U.S. 
  Agency for International Development
    Oral Statement...............................................     5
    Written Statement............................................     9
Mr. Charles M. Johnson, Jr., Director, International Affairs and 
  Trade, U.S. Government Accountability Office
    Oral Statement...............................................    19
    Written Statement............................................    21

 
STATUS OF U.S. FOREIGN ASSISTANCE TO AFGHANISTAN IN ANTICIPATION OF THE 
                         U.S. TROOPS WITHDRAWAL

                              ----------                              


                       Thursday, March 13, 2014,

                  House of Representatives,
                 Subcommittee on National Security,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:31 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the subcommittee] presiding.
    Present: Representatives Chaffetz, Lummis, Mica, Duncan, 
Woodall, Tierney, Maloney, Speier, Welch, and Lujan Grisham.
    Staff Present: Caitlin Carroll, Majority Press Secretary; 
Linda Good, Majority Chief Clerk; Mitchell S. Kominsky, 
Majority Counsel; Sarah Vance, Majority Assistant Clerk; Sang 
H. Yi, Majority Professional Staff Member; Jaron Bourke, 
Minority Director of Administration; Devon Hill, Minority 
Research Assistant; Peter Kenny, Minority Counsel; and Julia 
Krieger, Minority New Media Press Secretary.
    Mr. Chaffetz. The committee will come to order.
    I would like to begin this hearing by stating the Oversight 
Committee mission statement: We exist to secure two fundamental 
principles: first, Americans have a right to know that the 
money Washington takes from them is well spent and, second, 
Americans deserve an efficient, effective Government that works 
for them. Our duty on the Oversight and Government Reform 
Committee is to protect these rights.
    Our solemn responsibility is to hold Government accountable 
to taxpayers, because taxpayers have a right to know what they 
get from their Government. We will work tirelessly in 
partnership with citizen watchdogs to deliver the facts to the 
American people and bring genuine reform to the Federal 
bureaucracy. This is the mission of the Oversight and 
Government Reform Committee.
    Good afternoon. I would like to welcome everybody to this 
hearing today, which is entitled, Status of U.S. Foreign 
Assistance to Afghanistan in Anticipation of the U.S. Troops 
Withdrawal.
    I would like to welcome Ranking Member Tierney, members of 
the subcommittee, and members that are joining us here today in 
the audience.
    Today's hearing is critical because Afghanistan is 
consistently the leading recipient of U.S. foreign assistance. 
This assistance continues, but our greatest contribution to the 
future of Afghanistan has been the sacrifice of 1,795 U.S. 
military personnel. In addition, 19,665 Americans have been 
wounded in action since September 11th, 2001. We can never 
forget them. We owe them so much gratitude for their sacrifice 
for this Nation. There are countless others that have taken 
time away from their families and their careers to serve on 
behalf of the United States of America.
    Since 2002, the United States' Government has appropriated 
more than $102 billion for relief and reconstruction in 
Afghanistan. That does not include the war fight. That does not 
include our troops. That does not include the food for our 
troops or the military equipment. This is for relief and 
reconstruction. In recent years, the United States and other 
donors have funded about 90 percent of Afghanistan's total 
public expenditures. Of that 90 percent, the United States 
contributed roughly 62 percent. The United States continues to 
make substantial military and financial commitments in 
Afghanistan. Meanwhile, Afghanistan is perhaps the most corrupt 
nation on the face of the planet. We know this, it is not a 
secret.
    The challenge is in properly overseeing the assistance we 
provide Afghanistan are already difficult in the current 
environment with a United States military presence. For 
example, onsite monitoring is often restricted by security 
concerns. These challenges will only grow as U.S. troops leave 
Afghanistan. I have traveled to Afghanistan several times with 
the support the help, and the protection of the United States 
military, which is drawing down its efforts.
    The hearing will focus on this pivotal question: If we 
can't sufficiently oversee the billions of dollars we are 
spending now, should we continue spending billions with less 
visibility, less oversight, less security? And yet you will 
find through this hearing that we are actually going to be 
spending more money than ever in Afghanistan, which I think 
will be a surprise to most Americans.
    At the same time, the national security and economic stakes 
of our mission in Afghanistan are higher than ever. Therefore, 
we must ensure our aid programs are properly monitored. 
American taxpayers cannot afford to have their hard earned 
dollars sent overseas only to find our aid efforts plagued by 
waste, fraud, and abuse. Americans deserve better and so do our 
international partners.
    Ranking Member Tierney and I have held numerous bipartisan 
subcommittee hearings addressing some of the worst cases of 
waste, fraud, and abuse encumbering effective U.S. foreign 
assistance in Afghanistan. The subcommittee, prior to my even 
joining this committee, had been doing and working on this. The 
subcommittee has investigated petroleum oil and lubricants 
provided to the Afghan National Army by the United States 
totaling nearly half a billion dollars. Meanwhile, the Defense 
Department failed to properly maintain receipts for these 
transactions, and the Department of Defense wants to given them 
even more money.
    We have also investigated Dawood Hospital, where the United 
States provided more than $150 million in medical supplies in 
just an 18 month period. Unfortunately theft, mismanagement, 
and human suffering became rampant at Dawood. We still don't 
have the proper accounting on that.
    In 2012, a $1 billion bank scandal, one of the worst in 
banking history, erupted at the Kabul Bank. We will talk more 
about that later.
    Corruption in Afghanistan is likely the biggest threat to 
our ability to effectively administer foreign assistance. We 
are now at a point where uncertainty of troop levels beyond 
2014 in Afghanistan will hinder our ability to effectively 
administer foreign aid. This Administration's failure to secure 
a bilateral security agreement with the Afghan government means 
that agencies like USAID are left guessing at how much onsite 
monitoring of aid programs will be possible. But, again, we are 
going to be spending more money, giving more money direct to 
the Afghan government than ever before.
    Yesterday, the Senate Armed Services Committee held a 
hearing and heard from the Defense Department that because of 
the absence of a signed bilateral security agreement, 
Department of Defense will begin planning for various 
contingencies in Afghanistan. Today I look forward to hearing 
from USAID's contingency plans. We need to know that U.S. 
foreign assistance to Afghanistan will be properly monitored 
after the withdrawal of our troops.
    In 2012, I held a subcommittee hearing assessing the 
transition from a military-to a civilian-led mission in Iraq. 
The transition in Iraq was an unprecedented mission for the 
State Department and our diplomatic corps functioned without 
the protections of a typical host nation. The USAID Inspector 
General's Office testified that ``According to the USAID 
mission, the security situation has hampered its ability to 
monitor programs. Mission personnel are only occasionally able 
to travel to the field for site visits.''
    Afghanistan is likely to offer even greater challenges, and 
I want us to learn from our experiences in Iraq. In that 2012 
hearing, I asked the witnesses to think towards the future in 
planning for the transition in Afghanistan. Today we are much 
closer to that transition and I look forward to hearing from 
our witness panel.
    I would now like to recognize the gentleman from 
Massachusetts, the ranking member, somebody who has poured an 
awful lot of energy into this issue and understands it quite 
well, Mr. Tierney, for his opening statement.
    Mr. Tierney. Well, thank you, Mr. Chairman. Thank you for 
the hearing. This is, as you mentioned, the third in a series 
of hearings held by the full committee and the subcommittee on 
national security in the 113th Congress and about the 
challenges of administering and overseeing foreign aid in 
Afghanistan. So today's hearing is going to focus on the 
civilian side of development efforts in light of the planned 
draw down of United States military forces.
    Mr. Chairman, as you know, the vast majority of foreign 
assistance in Afghanistan is not managed by USAID, but by the 
Defense Department. Since 2002, the vast majority of that 
money, $59 billion, is for the Defense Department's programs to 
train, equip, and sustain the Afghanistan national security 
forces. We have had a number of hearings on that in the past 
and I believe that you agree with me that we are to do more 
hearings on that as we go forward.
    Even this year, when we plan to draw down many of our 
troops, we still plan to spend more than four times as much on 
Defense Department assistance programs than we will on civilian 
assistance programs. USAID's share is still substantial, 
however. Over $15 billion has been invested since 2002. We have 
to ensure that in Afghanistan, as in other high-risk locations, 
USAID is properly managing and accounting for how the taxpayer 
dollars are being spent. This includes improving efforts to 
collect data and monitor and evaluate program performance and 
outcomes.
    Assistant Administrator Sampler brings some significant 
experience to the table on this, having lived in Kabul and 
traveled to Afghanistan and Pakistan over 60 times, as I 
understand. I look forward to Mr. Sample's testimony today on 
what USAID is doing and what they can do to still keep its 
personnel and its partners' personnel safe, and to ensure the 
accountability of taxpayer funds in Afghanistan.
    This subcommittee and the full committee have also taken a 
closer look at the Administration's policy of providing 
assistance directly to the Afghan government, which the 
chairman just mentioned. A recent Special Inspector General for 
Afghanistan Reconstruction Report raised serious concerns over 
USAID's decision to move forward with direct assistance at 
seven Afghan ministries, despite external audits identifying 
many deficiencies at these ministries, deficiencies that have 
not been corrected.
    While I understand that USAID takes a different view of the 
actual risk to taxpayer funds, it would be unfair to only focus 
on this report today in the absence of our Inspector General 
John Sopko. Nevertheless, I look forward to hearing more about 
how USAID is ensuring that direct assistance in Afghanistan, 
how it is protecting from waste, fraud, and abuse, especially 
given the endemic corruption that exists in Afghanistan.
    At our full committee hearing nearly one year ago, 
Inspector General Sopko raised serious concerns that the draw 
down of the United States military will limit the ability of 
U.S. personnel to directly oversee projects both because of 
security concerns and because movement can only be supported 
within a one-hour round trip of any medical facility. This 
could limit access to some reconstruction sites, including the 
$75 million USAID-funded Kajaki dam project. Although the 
inspector general is not here today, I look forward to hearing 
whether the Government Accountability Office is experiencing 
some of those same challenges to access.
    Mr. Chairman, as you know, USAID operates in some of the 
most challenging parts of the world, including Pakistan, Iraq, 
and South Sudan, and, in these locations, USAID does not depend 
on the United States military either for their personnel 
security or to facilitate direct oversight of their projects. 
We may want to hear some of how that works in those locations 
and how it will be applied to this situation going forward.
    There are currently 34,000 United States troops in 
Afghanistan. By the end of this year, there will be 12,000 or 
10,000 or perhaps 8,000 troops remaining to train and equip 
missions, as well as limited counterterrorism operations. Yet, 
conditions on the ground, and most prominently President 
Karzai's refusal to sign the bilateral security agreement, has 
led President Obama to recently ask our military to consider a 
complete withdrawal by the end of the year.
    I hope that today's hearing will be the beginning of 
additional hearings focusing on the Administration's policy 
regarding a continued troop presence, whether it should in fact 
be a zero option or whether it should be 2, 4, 6, 8, 12 or 
however many troops. One line of question will certainly be: If 
the zero option, or close to it, is chosen, or if relatively 
few troops are maintained in Afghanistan, will any portion of 
them be utilized to ensure oversight of USAID programs? Are 
they necessary or desirable for such tasks? What are the other 
options to ensure safe oversight of USAID projects and 
spending?
    Thank you, Mr. Chairman.
    Mr. Chaffetz. Thank you.
    I remind members that they have seven days to submit 
opening statements for the record.
    We are now going to recognize our first panel. Mr. Sampler 
is the Assistant to the Administrator of the Office of 
Afghanistan and Pakistan Affairs at the U.S. Agency for 
International Development, often referred to as USAID. Mr. 
Johnson is the Director of International Affairs and Trade at 
the U.S. Government Accountability Office.
    I want to thank both you gentlemen for your expertise, your 
commitment to our Country and our Nation. I know you care 
deeply about her and your expertise is appreciated here today. 
We are going to ask some difficult questions but, again, don't 
let there be any question about your personal patriotism, your 
commitment to our Nation. This is a good back and forth with 
the United States Congress and we appreciate your being here 
today.
    With that, we will now, pursuant to committee rules, all 
witnesses need to be sworn before they testify, so if you will 
please rise and raise your right hands. Do you solemnly swear 
or affirm that the testimony you are about to give will be the 
truth, the whole truth, and nothing but the truth?
    [Witnesses respond in the affirmative.]
    Mr. Chaffetz. Thank you. You may be seated.
    Let the record reflect that the witnesses both answered in 
the affirmative.
    In order to allow time for discussion, we would appreciate 
you limiting your testimony to five minutes. But given that 
there are two panel members and only one panel, feel free to 
take a little bit of liberty with that. Just also know that 
your entire written statement will be made part of the record.
    With that, we will now recognize Mr. Sampler.

                       WITNESS STATEMENTS

              STATEMENT OF DONALD L. SAMPLER, JR.

    Mr. Sampler. Thank you, Mr. Chairman, for your remarks, for 
your welcome. Thank you both very much for allowing me the 
opportunity to testify today and discuss the role of the U.S. 
Agency for International Development in Afghanistan.
    We understand that the fiscal reality that our Nation faces 
at home means that resources available for Afghanistan will 
decline. This is going to require tough decisions, prioritizing 
investments so that we identify the ones with the greatest 
potential for long-term sustainability. We are committed to 
safeguarding taxpayer funds and to ensuring that the 
development progress in Afghanistan is maintained and made 
durable.
    I have been working on and in Afghanistan, both in civilian 
and military capacities, since 2002. In addition to having 
worked with the Afghan Emergency Loya Jirga, the Constitutional 
Loya Jirga, I have served as a representative of an 
international NGO, I was the chief of staff of the UN 
Assistance Mission in Afghanistan, and I have been a civilian 
representative of both the Departments of State and USAID. I 
bring all these perspectives to my work and to my testimony 
today.
    After the fall of the Taliban regime, I saw firsthand an 
Afghanistan that had been utterly destroyed by decades of war. 
In 2002, Afghanistan was starting with literally nothing. 
However, since that time positive developmental trends have 
been truly remarkable and they strongly reflect areas of USAID 
and U.S. Government interest and investment.
    Former Secretary of State Hillary Clinton recently said, 
when woman succeed, the world succeeds. Well, in Afghanistan 
today, there are over 3,000 women-owned businesses and 
associations. Almost 20 percent of Afghans enrolling in higher 
education or college are women, and women are active 
participants in Afghan political processes.
    On the UNDP Human Development Index, an important global 
metric for professional professionals, Afghanistan made the 
largest gains on a percentage basis of any country in the past 
decade.
    In 2002 there were less than 900,000 Afghan children in 
school. Today there are almost 8 million Afghan children in 
school, and 30 percent of those are girls.
    With respect to health, one of the areas where we made the 
most progress, life expectancy has increased from 42 years to 
62 years in Afghanistan.
    Maternal mortality rates have decreased by over 80 percent 
and child mortality has decreased by 50 percent.
    Again, in 2002, less than 6 percent of the Afghan 
population had access to electricity. Today that number is 
approximately 20 percent.
    Finally, in 2002, there were no fixed telephone lines, and 
if I wanted to make a call out of the country it required a 
satellite phone. Today the combined phone networks cover 90 
percent of the population of Afghanistan; 85 percent of the 
women in Afghanistan have access to a cell phone; and the 
telecommunications sector is Afghanistan's greatest source of 
foreign direct investment, the largest remitter of taxes to the 
government of Afghanistan, and the biggest listed employer, 
providing over 100,000 jobs.
    To assist the Afghans in securing these important gains and 
to enable them to build on these gains, USAID is engaged with 
the U.S. Interagency and with other donors to ensure that we 
have a transition policy that is sound, and I am happy to talk 
about that today. We are also focused on assuring that the 
Afghan government remains accountable during the transition 
process. At a senior officials meeting in Kabul last July, I 
announced a U.S. incentive fund of $75 million. These funds 
would be released to the Afghan government as they met specific 
thresholds of progress in five key areas: elections, 
subnational governance, human rights, public finance, and 
economic growth. To date, we have released $30 million of the 
$75 million, we have denied $30 million of the $75 million for 
inadequate progress, and $15 million is still in play pending 
Afghan performance.
    USAID places high priority on ensuring that American 
taxpayer dollars are used wisely, effectively, and only for 
their intended purpose. In a post-2014 environment, it will 
continue to be a difficult place to operate and we know that we 
will face challenges in the delivery of development assistance. 
Looking ahead, I believe the main challenges we face will be a 
volatile and uncertain security situation, oversight and 
monitoring of a complex and still robust portfolio, and the 
Afghan capacity for governance at all levels and in all 
sectors, which continues to grow. But, to be clear, USAID will 
terminate or redesign programs if we determine that a 
particular program cannot be adequately overseen or that it is 
not making adequate progress.
    One developmentally sound technique for building Afghan 
capacity to sustain the gains we have made so far and to allow 
the United States to transition out of our assistance program 
over time is government-to-government, or direct, assistance. 
USAID has a rigorous system of oversight for direct assistance 
programming with the Afghan government. It is complicated; 
different ministries have different strengths and weaknesses, 
and different programs are funded in different ways. But, in 
summation, there are a number of multiple levels of protection 
that we use to identify and mitigate risk before we disburse 
any funds: we may require the establishment of a non-comingle, 
separate bank account for each project; we disburse funds only 
after USAID has verified that a particular milestone has been 
reached or after we have verified the accrued costs; we require 
an annual audit by a USAID inspector general-approved external 
audit firm; we will insist on substantial involvement in 
ministerial procurement processes.
    All direct assistance requires compliance with USAID 
accountability and oversight procedures. This includes site 
visits. If Afghan ministries fail to adhere to these measures, 
the agreements are subject to immediate suspension or 
termination.
    In conclusion, let me say that USAID is always mindful of 
the enormous sacrifices made by Americans, our allies, our 
Afghan partners to build and secure a stable Afghanistan, and 
we fully understand the need for constant vigilance, 
particularly during this delicate transition period. Whether in 
the military, as a government civilian, as an implementing 
partner, I personally know the risks and sacrifices my brothers 
and sisters in the services have made, and their families have 
made as well, and I thank them also for their service.
    We are under no illusions about the challenges, though, 
that we continue to face in Afghanistan. Problems of limited 
capacity and corruption certainly exist in Afghanistan, just as 
they do in many of the other places where we operate, and they 
will continue to be a challenge for us, as was noted. However, 
these problems are not reasons to abandon our vital national 
interests. Instead, they are reasons to redouble the care and 
diligence of our efforts as we assist Afghanistan and as we 
pursue U.S. national interests. It is an honor to be able to 
share with you today a glimpse of what USAID is doing in that 
regard, and I look forward to the conversation. Thank you.
    [Prepared statement of Mr. Sampler follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Chaffetz. Thank you, Mr. Sampler.
    We now recognize Mr. Johnson for five minutes.

              STATEMENT OF CHARLES M. JOHNSON, JR.

    Mr. Johnson. Thank you, Mr. Chairman. Chairman Chaffetz, 
Ranking Member Tierney, members of the subcommittee, I am 
pleased to be here today on behalf of the GAO to discuss three 
issues related to USAID's efforts in Afghanistan that we 
outlined in our most recent Afghanistan key issues and 
contingency contracting reports. These issues are: the 
continued need for oversight and accountability, the need for 
continued monitoring and evaluation of projects, and the 
importance of planning in advance for the withdrawal of combat 
troops.
    Before I delve into these issues, it is important to point 
out that various factors, such as the security environment, the 
prevalence of corruption, which Mr. Sampler pointed out, and 
the limited capacity of the Afghanistan government, have 
challenged U.S. efforts.
    Now, with respect to oversight and accountability of funds, 
we have found that USAID did not always conduct pre-award risk 
assessments to identify and mitigate against risks of providing 
direct assistance to Afghan ministries. While USAID took some 
steps since our report to complete risk assessments, recent 
inspector general reporting indicates that USAID may not have 
mitigated for all identified risks.
    We also reported that USAID generally rely on multilateral 
organizations to ensure accountability over direct assistance 
provided through the Afghan Reconstruction Trust Fund. However, 
we found that USAID had not consistently complied with its risk 
assessment policies in awarding funds to the trust fund. In 
following up on our recommendation for action, we learned that 
USAID did take steps later in awarding additional funds to the 
Trust Fund to conduct pre-award risk assessments.
    With respect to monitoring and evaluation, which we also 
point out is a very important control that needs to be put in 
place, while USAID has taken steps to improve the management of 
its programs, various factors continue to challenge its ability 
to monitor program effectiveness. These factors include 
inconsistencies in USAID's application of its performance 
management procedures, shortfalls in maintaining institutional 
knowledge, and missed opportunities to enhance oversight and 
management of contractors.
    Concerning application of performance management 
procedures, we previously noted that USAID did not always 
follow its performance management procedures which, among other 
things, call for USAID to collect, analyze, and interpret 
performance data. While USAID took action in response to our 
recommendation, once again results of recent oversight have 
raised concerns about its continued efforts.
    Concerning institutional knowledge, USAID has historically 
faced obstacles in this area. Frequent staff turnovers have 
made it more difficult for USAID to analyze and interpret 
performance data. Further, according a recent USAID report, the 
majority of the foreign service national staff in Afghanistan 
have applied for special immigrant visas to the United States, 
potentially leaving the agency at risk of losing key staff with 
institutional knowledge.
    Concerning oversight and management of contractors, we 
recently reported that USAID had identified increasing 
performance reviews as one of its highest priorities with 
respect to performance reviews of their contractors. We also 
reported that USAID had established a working group to, among 
other things, develop a compendium of best practices and 
lessons learned for monitoring projects in a non-permissive 
environment. USAID, however, missed opportunities to leverage 
institutional knowledge by not assessing if the mission level 
policies and procedures should be considered agency-wide. In 
response to our recommendation, USAID has noted that it will 
create a working group to gather and share lessons learned.
    Finally, with respect to planning for future development 
efforts in Afghanistan, the USAID's ability to conduct mission 
and monitor its projects in Afghanistan is likely to be 
challenged by the planned withdrawal of combat troops. 
Additionally, finalizing plans for the post-combat environment 
is complicated by the absence of a signed bilateral security 
agreement. As combat troops continue to withdraw from 
Afghanistan, USAID's opportunities to directly monitor programs 
in certain parts of Afghanistan may be challenged, given that 
the military presence helped USAID gain access to less secure 
areas. As such, USAID will need to plan for how it will 
continue monitoring its projects in what is just as likely to 
be and remain a non-permissive environment.
    In closing, as the United States plans for the withdrawal 
of combat troops and transition to a civilian-led presence, it 
is important to have safeguards in place to help ensure 
sustainment of our gains. This will require continued oversight 
and accountability of U.S. funds, consistent application of 
USAID's monitoring evaluation policies, planning for challenges 
that are likely to result from the withdrawal of combat troops. 
Undertaking these steps, we believe, may help to better ensure 
accountability and could lessen the likelihood of waste, fraud, 
and abuse.
    Mr. Chairman, ranking member, members of the subcommittee, 
once again I thank you for the opportunity to testify. This 
concludes my opening statement. I would be happy to take any 
questions for the record.
    [Prepared statement of Mr. Johnson follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Chaffetz. Thank you. Thank you both.
    I now recognize myself for five minutes.
    I want to start, Mr. Sampler, with my understanding is we 
have about $20 billion that is yet to be disbursed in 
Afghanistan. Yet, I am looking at this SIGAR report, this is 
the Special Inspector General for Afghan Reconstruction. We 
refer to it as SIGAR. Here is the concern. I have general 
concerns overall about USAID's forward program. It is laudable 
to set goals, but I really have deep concerns about this.
    And let me just read part of this assessment that came out 
in January of 2014. Ernst & Young and KPMG came in and did 
assessments. All of the 16 ministries assessed ``were unable to 
manage and account for funds unless they implemented 
recommendations.'' There were 696 recommendations that were 
made, and yet here I am finding that SIGAR found that USAID 
required that ministries only implement 24 of the 333 
recommended risk mitigation measures prior to receiving funds.
    The report says, ``Although USAID-Afghanistan concluded in 
each of the 7 risk reviews that the ministry was unable to 
manage direct assistance funds without a risk mitigation 
strategy in place and that the mission would not award direct 
assistance to the ministry 'under normal circumstances', USAID-
Afghanistan signed the agreements with each of the reviewed 
ministries to approve direct assistance programs.''
    As the report points out, the U.S. Government has committed 
to providing at least 50 percent of its developmental aid to 
Afghanistan through on-budget assistance to the Afghan 
government. We are talking about 50 percent of $20 billion. And 
yet none of the ministries could even pass the basic test by 
the outside groups that you cited in your opening statement as 
coming in and doing the audit. Why are we doing this? That was 
a question, yes.
    Mr. Sampler. Congressman, thank you. We are in Afghanistan 
because we were attacked from Afghanistan.
    Mr. Chaffetz. No, no, no, no, no.
    Mr. Sampler. We are not doing this because----
    Mr. Chaffetz. Wait, wait, wait. We don't need the history 
of why we are there.
    Mr. Sampler. Right.
    Mr. Chaffetz. The reality is we are there. We have invested 
lives. Americans have given their lives. The last thing we want 
to do is just abandon and forget. We have invested a lot there. 
I am concerned about giving tens of billions of dollars to the 
most corrupt foreign country that there is. This is the most 
corrupt nation on the face of the planet and we are going to 
give them tens of billions of dollars with less oversight than 
ever. Why are we doing that?
    Mr. Sampler. Congressman, let me just challenge the 
question from the SIGAR report, if I may. It was an audit of 
our audits. Our audits were found to be sound, as you noted. 
They audited 13 ministries and it was a soup-to-nuts audit of 
all the risks in all the ministries that we could identify.
    Mr. Chaffetz. I believe it was 16 ministries, but go ahead.
    Mr. Sampler. We are not working with all of those 
ministries; we are working with 7. That was a deliberate 
decision based on development needs, the needs of the 
Government, and U.S. Government priorities. So in those 7 
ministries we again identified every possible risk we could 
through these audits, but we focused on projectized money. We 
don't give money to the government of Afghanistan, we spend 
money on projects with the government of Afghanistan, and that 
is what is missing in the SIGAR audit, is a recognition that--
--
    Mr. Chaffetz. There is no direct assistance, no on-budget 
assistance? You are telling me there are no dollars going 
direct to the Afghan government?
    Mr. Sampler. There are some terms of art, Congressman, and 
forgive me if this sounds bureaucratic. When we talk about 
doing direct assistance, that is programs that we do with 
ministries of the government of Afghanistan, and we control 
every dime of that money. When we talk about doing on-budget 
assistance, that is when, as Mr. Johnson referred to, we are 
giving money to a multi-donor trust fund that is administered 
by The World Bank; and within that trust fund there is a small 
window of funds, called recurrent costs, which do go to the 
government of Afghanistan to meet salaries. But every step of 
that is still audited by international auditors that our 
inspector general has approved.
    So I refute the notion that we give money to the government 
of Afghanistan.
    Mr. Chaffetz. I just went through this with USAID, with the 
Kabul Bank situation, nearly $1 billion in missing funds. When 
I went to Afghanistan and sat in the room and I asked those 
people how much of that is U.S. money, they said we have no 
idea; when we just give it to the Afghan government, we have no 
more accountability, it is hands off, we can't even tell you. 
When I went to Afghanistan, I just asked for a simple 
spreadsheet of the schools that we had helped. USAID couldn't 
even provide me a spreadsheet of those. Now, later they 
followed up and gave us some of those.
    But you are telling me that there is no money, U.S. 
taxpayer money going direct to the Afghan government?
    Mr. Sampler. Congressman, there may be some that goes 
through The World Bank multi-donor trust fund and through the 
recurrent cost window----
    Mr. Chaffetz. That is not the oversight that is happening 
here. We are not giving all this money to The World Bank. That 
is not how this is working.
    Mr. Sampler. No, Congressman, most of our money is done in 
direct assistance, and that is where USAID professionals work 
with the ministries of the seven ministries I named on specific 
programs. So most of it is projectized money. But you asked me 
directly if we give money to the government of Afghanistan, and 
the only way that could be interpreted as happening is if it is 
done through the very carefully regulated World Bank multi-
donor trust fund.
    Mr. Chaffetz. When it says in this report, ``SIGAR found 
that USAID-Afghanistan has only required the ministries to 
implement 24 of the 333 recommended risk-mitigation measures 
prior to receiving funds,'' true or false?
    Mr. Sampler. True, Congressman, but inaccurate. The 
inaccuracy is we identified every possible weakness within 
these ministries, but our projectized risk, the risk to a 
particular project in the Ministry of Public Health, doesn't 
require all those risks to be mitigated at once. The conditions 
precedence, the things that we forced them to fix now, before 
we give them money, are risks that are specific and immediate 
to a particular project.
    And I will note that we do address all the risks through a 
completely separate technical assistance goal. Our goal was to 
create ministries that do this themselves, and that is the 
reason the direct assistance is a valuable tool. But our first 
priority is safeguarding taxpayer resources, so we don't put 
money into any of these ministries.
    Mr. Chaffetz. I am way past my time.
    I recognize the gentleman from Massachusetts, Mr. Tierney, 
the ranking member.
    Mr. Tierney. Thank you.
    Mr. Johnson, does the Government Accountability Office have 
staff on the ground in Afghanistan?
    Mr. Johnson. Yes, we do.
    Mr. Tierney. And how important is their presence to the 
investigations of the programs and the policies in that 
country?
    Mr. Johnson. Their presence, which the Congress has 
supported and we thank you for that support, has been extremely 
valuable, it gives us the firsthand, realtime experience and 
interaction with our colleagues who were there in the IG and 
oversight community, as well as with the agencies that we do 
oversight for you, whether it is DOD, State, and USAID. So 
their presence has been extremely valuable.
    Mr. Tierney. And how important is it that those individuals 
have access to documents that they believe are relevant to 
their investigations and audits?
    Mr. Johnson. That is extremely important to our work, and 
with respect to the work in Afghanistan we have had a pretty 
good relationship with respect to our Afghanistan-related work.
    Mr. Tierney. So how open would you say the United States 
Agency of International Development has been to reviews of 
those documents by the General Accountability Office?
    Mr. Johnson. If the focus is on our Afghanistan oversight, 
we have had pretty good interaction with the folks at the 
mission with respect to our Afghanistan oversight.
    Mr. Tierney. So you have been allowed to review the 
documents, even documents that were marked sensitive, but 
unclassified?
    Mr. Johnson. In some cases, and with respect to 
Afghanistan, that answer would be an affirmative answer.
    Mr. Tierney. You have been able to do that.
    Mr. Johnson. With respect to Afghanistan.
    Mr. Tierney. And with respect to where have you not had 
that kind of cooperation?
    Mr. Johnson. I think it has been somewhat not an access 
issue, but more so we have experienced some challenges in terms 
of the processes we have had to go through to gain the timely 
ability to review documents.
    Mr. Tierney. Can you explain that to me?
    Mr. Johnson. I guess basically there are some cases where 
we have to have our staff come over to a reading room and other 
areas to look at materials, and that has basically created more 
of a strain on our resources and been somewhat more costly.
    Mr. Tierney. So these are unclassified documents that your 
staff has had to be brought over to a facility and the work is 
done there?
    Mr. Johnson. Yes.
    Mr. Tierney. And whose policy is that?
    Mr. Johnson. This is actually within USAID's policy.
    Mr. Tierney. And in practical terms how does that affect 
the work that you are trying to do?
    Mr. Johnson. Well, as I pointing out, most of the effect 
has to do with a resource constraint. We see it as something 
that creates an additional cost for our resources.
    Mr. Tierney. Mr. Sample, I would be a little concerned if 
those sets of policies are being used in any way at all for 
abusive purposes. I understand that sometimes it is necessary 
to have documents have some level of secrecy, but if you are 
going to be marking things that are sensitive, but not 
classified, it seems that there could be a better policy worked 
out to allow access without causing such a strain on resources. 
What do you say?
    Mr. Sampler. Congressman, first, of course USAID does not 
in any way want to hamper the work of GAO or your committee, 
and it is our policy to share information that is required for 
those duties. When we mark information sensitive, but 
unclassified, we provide always, in camera, access to full, 
unredacted documents, in every case, as far as I am aware.
    Mr. Tierney. You just make them spend extra resources 
getting over to take a look at them.
    Mr. Sampler. The problem, Congressman, is that in the 
generation of some of these documents, they include information 
that is sensitive. The example I have used in Afghanistan is 
some of the documents we created actually named members of 
oversight bodies like your own in the government of Afghanistan 
who are providing oversight and trying to prevent Afghan fraud, 
waste, and abuse; and naming them in a public document would 
put them literally at risk of their life, and that is sensitive 
information. It is not classified because it doesn't do risk to 
the United States' national interest, but it is sensitive.
    Mr. Tierney. I don't think it is anybody's surprise who the 
members of this panel are and that we are doing this kind of 
work. I mean, I am concerned because when Mr. Sopko went over 
there, it was working the same issue. He reported back that he 
was coming into some of the same restrictions on that and that 
when he asked for an explanation of it, he was told that 
documents could be disclosed, except that they would be found 
to be embarrassing.
    Now, I don't think that you drafted the policy, for sure, 
but you may be stuck with trying to implement it from time to 
time. Have you come across any of those situations where things 
were not disclosed primarily because they would just be 
embarrassing if they were, as opposed to being so sensitive for 
security reasons?
    Mr. Sampler. No, Congressman, we would not hold documents 
back and we have not, to my knowledge, redacted documents 
because of that. The issue that you are describing with the 
special inspector general may well have an impact, however, on 
the next round of engagements with the government of 
Afghanistan. They opened all their books to us in an 
unprecedented level of access to do a collaborative assessment 
of risk in their ministries expecting that those would be kept 
internal to the U.S. Government.
    They have since not been kept internal to the U.S. 
Government. The reactions are to protect personal interests and 
individuals, and in a couple cases to protect against the 
revealing vulnerabilities in Afghan systems that would indeed 
open them up to exactly the kind of exploitation that we are 
trying to avoid and train them not to do.
    Mr. Tierney. Well, I have some sympathy for the sensitivity 
issue with respect to the Afghan officials, but I have no 
sensitivity to them not opening their books fully in order for 
us to review and audit whether or not they are spending the 
money that the United States appropriates wisely. So obviously 
there is a question of a balance there on that that we have to 
strike on that basis, but I would like to see some effort be 
made to lighten the burden on personnel that the General 
Accountability Office and the inspector general have in getting 
access to those documents so that it doesn't become onerous, 
sort of a stepped-up effort to make sure there really is a 
national security issue on sensitivity on that before any kind 
of restriction is put on them at all.
    Recently there was a proposal, USAID proposal to hire 
photographers in Afghanistan, and the expressed purpose, I am 
told, was ``to counter negative visual images coming from 
Afghanistan with high-quality positive images.'' To the extent 
possible, can you explain the reason behind that original 
proposal?
    Mr. Sampler. Certainly, Congressman. Our staff work is not 
always as good as it should be before it is released to the 
public. I will just be candid. If I had seen that, I would not 
have released it to the public as it was written. The staff in 
Afghanistan are passionate about the work that they do, and by 
the time newspaper reports in Washington get put up on the 
Internet and go back to Kabul, the real experience our staff 
have on the ground with what is reported in the international 
media just doesn't sync. They have a cognitive dissonance 
between what they are doing and what they see with their own 
eyes and then what they see reported in the international 
press.
    Now, I personally push aggressively, from my time in 
private practice, to encourage every staff member to collect 
stories and pictures and opportunities to talk about and 
demonstrate the effects of the good work that is being done, 
but the quality of what we collect ourselves is not that good; 
our cell phone photographs and our selfies that are taken in 
the field don't tell the story adequately well. So the intent 
of this was merely to capture positive news stories in 
Afghanistan that we know are there and make them available for 
people who wish to see them. It was not an attempt to 
propagandize, it was not an attempt to gain or to counter 
negative stories. It was, though, an attempt, and in my opinion 
a poorly executed, but well intended attempt, to tell the good 
news stories of the work that USAID, the U.S. Government, and, 
indeed, all the donors are doing in Afghanistan.
    Mr. Tierney. Well, when you use an expression like 
``counter negative visual images,'' it sort of flows against 
what you are trying to tell us here on that, so it was at least 
a most unfortunate use of language, if nothing else. I assume 
that now that that project has been cancelled and there has 
been some attention brought to the matter, it is a lesson 
learned for folks. I think most of us are never happy with the 
press and the visual and verbal images that they project when 
they fly by and write a story and go off into the sunset, but I 
don't think it gives us license to try and create our own 
stories on that.
    Mr. Sampler. No, I agree, Congressman.
    Mr. Tierney. Appreciate your remarks. Thank you.
    Mr. Chaffetz. Thank you.
    We now recognize the gentleman from Florida, Mr. Mica, for 
five minutes.
    Mr. Mica. Thank you, Mr. Chairman.
    A couple of things. Let me go first to Mr. Sampler. Got 
this amount, $102 billion U.S. assistance in aid, non-military, 
since 2002, is it? Is that correct?
    Mr. Sampler. It is, Congressman, depending on how you parse 
the money. As was previously noted, a large percentage, over 
half of that was, in fact, used for development and assistance 
to the military.
    Mr. Mica. How much is their annual budget? I have $7.5 
billion. That is the federal budget for Afghanistan?
    Mr. Sampler. I think that is right, but I can't confirm 
that.
    Mr. Mica. And my calculation is that we have been pouring 
in an average of about $10 billion in economic aid, not 
counting military aid. Is that a ballpark figure?
    Mr. Sampler. Congressman, I am not sure what you asked, I 
am sorry.
    Mr. Mica. Well, it is about $10 billion in economic aid a 
year over that period, maybe 9 or something.
    Mr. Sampler. I am sorry, development assistance, yes.
    Mr. Mica. On average. So that my point is that the average 
aid, non-military, exceeds their annual budget. That would be 
correct. It has to be more than the $7.5.
    Now, the chairman cited that we had a hearing here with the 
special inspector general and he sat right in that chair. I 
almost fell of my chair when he said there is $20 billion right 
now in economic aid that the Afghans have neither the capacity 
to absorb or ability to spend or steal, and when I got to 
question him a second time I said did I hear you say capacity 
to spend or steal, and I think he confirmed that was the case.
    Do you believe that also to be the case?
    Mr. Sampler. Congressman, we are working aggressively to 
increase their capacity to spend that money and decrease their 
capacity to steal it.
    Mr. Mica. But his review was quite critical, that the level 
of corruption is extremely high. Now, you go after people who 
misuse your money, USAID money. I guess you have administered 
about 47 percent of that. Does that include the money going 
through NGOs or is the 53 percent given to other international 
organizations?
    Mr. Sampler. Congressman, some goes through local and 
international NGOs, and our money is aggressively pursued and 
overseen.
    Mr. Mica. Has there been any case in which the United 
States has pursued people who have misused our dollars that you 
could site?
    Mr. Sampler. There have been programs that we shut down 
because they were not performing.
    Mr. Mica. Have we had the ability--it is within another 
jurisdiction--to go after them, or have the Afghanis prosecuted 
anyone for corruption, fraud, or abuse of that aid?
    Mr. Sampler. The first question, I don't know the answer to 
that. I don't know if we have actually----
    Mr. Mica. Can you provide it to the committee?
    Mr. Sampler. We can.
    Mr. Mica. Okay.
    Mr. Sampler. Yes, sir.
    Mr. Mica. To your knowledge, has anyone been prosecuted for 
misusing U.S. dollars?
    Mr. Sampler. In Afghanistan?
    Mr. Mica. Yes.
    Mr. Sampler. We actually arrested a USAID staff member in 
Afghanistan who our own inspector general had investigated----
    Mr. Mica. So you can testify that some of our people have 
done wrong. Any Afghanis or any other folks that we know of 
that we have gone after? It sounds like we have lost billions 
to corruption as high as the President's office and family, 
and, again, when I went over there, Mr. Chaffetz had been over 
there and cited that, I remember pointing out, I went to a 
forward operating position in one of the villages and the 
troops pointed out, see that school over there, we constructed 
it? That is the village joke because we paid five or ten times 
what it should cost to build that. Are you aware that that kind 
of misuse of our hard-earned taxpayer dollars has gone on, 
continues to go on?
    Mr. Sampler. Congressman, let me answer your first point 
first, about billions of dollars in corruption. I will state 
categorically USAID has not lost billions of dollars to 
corruption in Afghanistan. To your point of a specific school 
in a specific----
    Mr. Mica. Well, then it will be to overpayment and misuse, 
waste.
    Mr. Sampler. Congressman, I cannot honestly categorically 
say there have not been overpayments. Doing reconstruction and 
development in a war zone is a challenge. Our guidance, our 
rules don't allow for it. When we find it, we pursue it.
    Mr. Mica. If I wanted to stop the aid, what do I have to go 
through, which budget, would that be State? Most of this AID 
money is coming through the State.
    Mr. Sampler. From the Foreign Operation, yes, Congressman.
    Mr. Mica. So that is where I have to target it.
    Mr. Sampler. Congressman, I am not certain of the process--
--
    Mr. Mica. Well, I want you to help me because I want to cut 
us off. You may not be inclined to cooperate other than 
providing me with assurance that if I cut it off, there will be 
able to stop some of the waste and abuse.
    My time is up, but I have lots more questions, Mr. 
Chairman, I would like to submit and get follow up responses, 
and I yield back.
    Mr. Chaffetz. The gentleman yields back.
    All members' questions within the time frame will be 
submitted, and we would appreciate both of you, Mr. Johnson and 
Mr. Sampler, to help us, in a timely way, getting answers to 
those questions.
    Duly noted for Mr. Mica.
    We will now recognize the gentlewoman from California, Ms. 
Speier, for five minutes.
    Ms. Speier. I believe Mr. Welch is next.
    Mr. Chaffetz. Mr. Welch, my apologies. You are now 
recognized for five minutes.
    Mr. Welch. That is okay. Thank you very much.
    I agree with the statement of Mr. Chaffetz, your opening 
statement, and Mr. Tierney, your opening statement. I really 
appreciate the fact that you are having this hearing at this 
time, and I think the whole committee does; it is really 
refreshing for me to be part of a constructive oversight 
operation.
    You know, you are here, but we have a problem that you 
didn't cause; to a significant degree, Congress has been 
complicit in this. We have a situation now in Afghanistan 
where, obviously, it is in our interest for them to maintain 
the gains that have been made. It is in our interest for 
Afghanistan to have maximum stability.
    But having said those are our interests, does it mean that 
if we continue pumping money into a country that has 
institutionalized corruption, weak institutions, and a revenue 
system that is basically non-existent, we can have any 
confidence whatsoever that that money will achieve the goals of 
maintaining gains or stability? I mean, that is really my 
question. I would not have a problem sending resources to 
Afghanistan if I had the slightest bit of confidence that it 
would actually work.
    And you have laid out a number of the steps that you have 
tried to take in order to maintain some accountability and 
transparency, but there is, it seems to me, a problem, and that 
is no matter what steps you take, no matter how much you try to 
stay ahead of the game, if you have a government that will not 
even establish a revenue system, that basically says, hey, 3 
percent of our revenue will come from what we collect and 97 
percent will come from foreign aid, and then that foreign aid, 
as I think everybody knows, has been used basically as a source 
of funding the private lives and an institutionalized system of 
corruption, rather than building up institutions, I think it 
makes it hard on both sides of the aisle to be confident that, 
even if we share the goal that you are trying to achieve, 
sending the money is going to get the job done.
    So my question is this: Given that skepticism, which I 
think is widely shared, what are some specific concrete things 
that we could do that are easy to understand, easy to monitor, 
that would guarantee that the money delivered was not stolen? 
That is number one. Number two, should there be some 
preconditions like, for instance, that the Afghanistan 
government establishes a revenue system whereby they have some 
skin in the game before we are just sending checks that we are 
not confident are going to be used?
    So that is kind of a long question, but I think it states 
the dilemma that we are in. Start with you, Mr. Sampler.
    Mr. Sampler. Congressman, I appreciate your skepticism. I 
make it a point, once a month, to try and get outside the 
Beltway and talk to business organizations, and I get exactly 
the same skepticism from ordinary Americans; and I think it is 
important that we be reminded that the people providing us 
these resources are skeptical.
    The first point I will make in terms of assuring success is 
that the money we have invested thus far has produced 
spectacular development returns. And I use those words 
advisedly. They truly are, in the realm of development, 
spectacular returns; in the area of health, education, 
infrastructure, and even in the area of building governance.
    In 2002 there was not an intact building anywhere in Kabul. 
There were no ministries in 2002. Next month, in less than 30 
days, we will have an election in Afghanistan where a 
democratically elected government will pass the reins of power 
to another democratically elected administration, we hope.
    I think you are right to look for preconditions. I think, 
at this point in time, this government is in less than an 
advantageous position to impose them. But I know from working 
with the ministers, the technocrats who have been selected to 
lead the government, that they do understand both the 
skepticism in the parliaments and in the populations of the 
donor countries, and the requirement that they begin to show 
that they do have skin in the game and that they are interested 
in weaning themselves off of donor dependency.
    With respect to specific measures, I wish I could say that 
there are simple things that we can do; and there are some, but 
they get very complicated quickly as we begin to explain them. 
If this were particularly risk-free and particularly easy and 
direct to do, I would expect us to pass this to the private 
sector. That is what they do. What we do is work in situations 
where the risks cannot always be eliminated.
    But you asked for specific things. With respect to 
projectizing money, that is probably the principal way we 
assure that the admittedly corrupt government of Afghanistan 
does not, in turn, corrupt our programs. We projectize money; 
we do not give money to the government. We control the bank 
accounts. In these projects, we insist that they set up a 
separate, non-comingled bank account that USAID has control of 
and oversight over.
    If the money is being paid out to a ministry as they 
achieve a milestone, then we verify the achievement of that 
milestone, and we do it through various and multiple data 
collection methods. It maybe technological, through satellite 
imagery; it may be crowd sourcing, where we talk to the 
recipients of the program; it may be self-reporting from the 
government or self-reporting from a partner. But we take 
multiple inputs and we have a unit that has been created at the 
embassy, called the Institutional Support Unit, that analyzes 
this data and renders a very dry and a very detached 
perspective of is this data collection acceptable and can we 
say they have met the milestone. If we can't, we don't pay. If 
they meet the milestone, we do.
    Separately, we may pay cost accruals, where they turn in 
receipts. But, again, we validate those receipts through 
multiple external sources.
    So there is a number, and I would argue an adequate number, 
of different kinds of mechanisms, counters and checks and 
balances in place. They haven't been reported in the special 
inspector general reports, but they are there, and hopefully a 
future inspector general report will examine those as well.
    Mr. Chaffetz. Thank you.
    I thank the gentleman.
    To suggest that they are trying to wean themself off of 
foreign assistance defies logic. They are not doing anything 
like that, and we are spending more money there than ever. We 
are increasing the spending there, we are not decreasing it. 
Why would they do it? Why would they wean themselves off of 
this money when we just give it to them for free? That is a 
ridiculous assertion and you should be ashamed for making that 
comment.
    We now recognize the gentleman from Tennessee, Mr. Duncan, 
for five minutes.
    Mr. Duncan. Well, thank you very much, Mr. Chairman, and I 
don't have any questions, but I do want to make a statement. I 
have no criticism of Mr. Sampler or the Agency for 
International Development, because I am sure they are doing the 
best they can with the assignment they have been given. But I 
will criticize the policy, because I think it is totally crazy 
what we are doing over there in regard to particularly the 
amount of money that we are spending.
    This is my 26th year in the Congress. When I first came 
here, our national debt was less than $3 trillion. I thought 
that was terrible. But we have lost sight up here of how much 
money a trillion dollars is. We can't even comprehend anything 
like that; yet now we are over $17 trillion in debt and they 
say we are going to double that in another eight or nine years. 
Yet, we are sending all this money down a rat hole in 
Afghanistan.
    I have been given several articles here, one from the 
Huffington Post, that says, as Afghanistan draw down looms, 
inspector general warns of graft, and it says he is watching 
the country slip away and he is quoted as saying, every time I 
visit, I am told by people that we are succeeding, says John 
Sopko; and he has been here to testify in front of us several 
times. I am not an expert on war fighting, but I know I can see 
less of the country every time I go because of security 
problems.
    Then there is an article from some publication called The 
Interpreter that says, Foreign Aid: Is Afghanistan a Welfare 
State? Well, I voted for the go to war in Afghanistan, but I 
sure didn't vote for a forever war or a permanent war, or to 
turn Afghanistan into a welfare state, and that is what we have 
done. This is a country that had a GDP of $21 billion before we 
went in there, and now, according to the World Affairs Journal, 
there is an article here that says, Money Pit: The Monstrous 
Failure of U.S. Aid to Afghanistan. And it says in this 
article, it says, in a recent quarterly report, the U.S. 
inspector general for Afghanistan reconstruction said that when 
security for aid workers is figured in, the total amount of 
non-military funds Washington has appropriated since 2002 is 
approximately $100 billion.
    You know, it is unbelievable what we have spent militarily, 
but $100 billion. And that was the figure last July. And it 
says, since then, Congress has appropriated another $16.5 
billion for reconstruction, and it says in this article, it 
says, What has all this spending accomplished? ``The short 
answer is not so much,'' said Masood Fayvar, a senior Afghan 
journalist. And it says, or as the International Crisis Group 
put it, ``Despite billions of dollars in aid, state 
institutions remain fragile and unable to provide good 
governance, deliver basic services to the majority of the 
population, or guarantee human security.'' Lastly, Heather Barr 
of Human Rights Watch, a long-time representative in 
Afghanistan, said, Afghanistan in many ways is sort of a 
perfect case study of how not to give aid.
    You know, when we are borrowing 42 percent, or whatever it 
is, of every penny that we spend, it is just ridiculous to 
think that we have spent this much money over there. Our 
Constitution doesn't give us the authority or the right to run 
another country and do everything imaginable for them. I mean, 
I am for trade and tourism and cultural educational exchanges 
and helping out to a very limited extent during humanitarian 
crises, but I will say again it is just ridiculous. It is just 
crazy for us to spend this much money that we don't have, 
because it is long past the time when we need to start putting 
our own Country and our own people first once again, and stop 
trying to do all this that we are doing over in Afghanistan.
    Thank you, Mr. Chairman.
    Mr. Chaffetz. Thank you. Appreciate that.
    We will now recognize the gentlewoman from California, Ms. 
Speier, for five minutes.
    Ms. Speier. Mr. Chairman, thank you.
    And to Mr. Sampler and Mr. Johnson, thank you both for your 
service to our Country and for the leadership that you have 
shown.
    I think what you are feeling here on this dais is that we 
believe that USAID has a purpose, and around the world, when we 
create this soft money to go into countries and to help people 
build their infrastructure and their economic prowess, we do it 
expecting that it is going to work. We spent a lot of money in 
Iraq, maybe not as much as we spent in Afghanistan, and then 
they kicked us out. And, Mr. Sampler, you would agree that 
money is basically down the tubes, right?
    Mr. Sampler. No, ma'am, not categorically I wouldn't. I 
mean, the development good that was done in Afghanistan is a 
lasting good; the children that were fed, schools that were 
built. So development money is development money. So I don't 
categorically agree that that money is lost because of a 
political schism between us and Iraq. The development good that 
we did in Iraq has lasting effects. I am not a specialist, I 
haven't done Iraq, but, in general, I don't believe that just 
because we are not still there doesn't mean that the good we 
did was lost.
    Ms. Speier. How much money did we spend on this spin 
doctor?
    Mr. Sampler. I am sorry, ma'am, I don't understand.
    Ms. Speier. Mr. Tierney had queried you about the position 
that was created.
    Mr. Sampler. We never hired that position.
    Ms. Speier. Well, how much were you slated to spend on it?
    Mr. Sampler. I don't know the answer to that.
    Ms. Speier. Could you find out and return that information 
to the committee so we know what the priority was there?
    Mr. Sampler. Yes, ma'am.
    Ms. Speier. In 2010, President Karzai said we could no 
longer rely on contractors to provide security for our convoys 
and the people that we had there, and that we had to rely on 
the Afghan Public Protection Force. Now President Karzai is 
reporting that he is disbanding the APPF. So I think we are all 
very concerned up here that we not have another Benghazi, that 
we don't lose members who are providing services for USAID or 
from the State Department.
    How are we providing security for our facilities and our 
personnel there?
    Mr. Sampler. Yes, ma'am. No one shares your concern about 
the safety of our staff more than I do. A point of fact, 
though, a clarification. APPF, as you noted, was decried by 
President Karzai in 2010. APPF, however, does not provide 
security for diplomatic enclaves. So U.S. Government direct 
hires, my staff and the State Department staff----
    Ms. Speier. All right, let's talk about the people that 
aren't your staff.
    Mr. Sampler. Okay. Partners, Medicins Sans Frontieres, for-
profit partners who work for us in Afghanistan, if they wish to 
have armed guards, they must be hired through APPF by Afghan 
law. At the time of APPF's creation, only about 20 percent of 
our partners actually used armed guards. So 20 percent of our 
partners were required to enter contractual agreements with the 
state-owned enterprise known as APPF for their guards.
    Ms. Speier. All right, I already said that. I want to get 
to your answer. What is happening now that Karzai is disbanding 
APPF?
    Mr. Sampler. Yes, ma'am. It is an internal Afghan 
government discussion, it is ongoing. The most recent 
diplomatic engagement with Minister of Interior Daudzai, he 
assured us that there would be no interruption of services 
being provided by APPF to our partners. He provided static 
security and convoy security, the latter primarily for the 
military, but Daudzai made a very clear statement to senior 
U.S. Government officials, because we asked him very pointedly 
these questions, and he said there would not be an interruption 
of service.
    Ms. Speier. Well, if the APPF is being disbanded, who is 
going to provide the security?
    Mr. Sampler. Again, the context is that Afghanistan is 
facing a presidential election in less than a month. There is a 
fair amount of confusion inside the Afghan government about 
what they are going to do, which is why we went to the minister 
for his assurance. I think there is an expectation on the part 
of some that APPF will be absorbed back into the Ministry of 
Interior and to the Afghan Uniform Police Service----
    Ms. Speier. So we don't know, but we are relying on a 
minister within the government, who may or may not be there 
after the election.
    Mr. Sampler. Ma'am, in all candor, in most countries that 
is all we have.
    Ms. Speier. And maybe you can't do more than that. But I 
just want a straight answer. I think the committee deserves a 
straight answer, and we need to have our eyes wide open in 
terms of what kind of protection or lack of protection is there 
for those who are what we are engaged in having us provide 
assistance to the Afghan people.
    You said that there are no funds that go directly to the 
government and that you control these funds. So, if I 
understand you correctly, you have money that is going to an 
NGO or someone providing services who is a for-profit, you put 
the money in a bank, a central bank in Afghanistan, and 
withdrawals are only made by you, is that correct?
    Mr. Sampler. The withdrawals are authorized by USAID, yes, 
ma'am.
    Ms. Speier. Well, do you make an authorization of $20 
million or $4,000 because that is what the invoice is for?
    Mr. Sampler. It depends on the program, ma'am. In every 
case we are either paying for reaching a milestone, in which 
case we externally validate that they reached the milestone and 
then we pay them what we agreed for that, or we are paying for 
the accrual of expenses, in which case they submitted batches 
of receipts and we, in turn, audit the receipts and externally 
validate that the receipts are good. But in either case we 
validate what we are paying for before we pay it, and then we 
validate that the check actually went to the person or the 
organization that performed the services.
    Ms. Speier. And how do you validate that?
    Mr. Sampler. We ask them.
    Ms. Speier. So you call them up on the phone and say did 
you actually get this check?
    Mr. Sampler. We can in some cases. There are different ways 
that we can do that, but, yes, ma'am, most of the NGOs that do 
this work, in public health, for example, are NGOs that are 
known to us. We have been in Afghanistan now for a dozen years 
and some of these NGOs have been there for 40 or 50 years. So 
when the Ministry of Public Health, with our oversight and 
permission, engages a particular NGO to do a health clinic, we 
know the people that run that clinic and we know that NGO, and 
we are able to ask the clinic did you get the resources, did 
you get the $12,627 that you asked for.
    Ms. Speier. All right.
    Mr. Chairman, my time has expired, but I still have an 
abiding question as to how a billion dollars in funds at the 
Kabul Bank got distributed to a group of 18 individuals and we 
don't know why or how, and we are presuming this money was not 
U.S. money, which is what I guess everyone is presuming. I 
yield back.
    Mr. Chaffetz. And I think the point there, if the 
gentlewoman would yield, is that there was a significant amount 
of U.S. money. Part of this went to Karzai's brother. He is 
listed as one of the people taking this money. And the excuse 
that we get from USAID is, well, once we give it to the 
government, it is hands off, we don't get to see it anymore; 
that is their business, not our business. And there have been 
external reports done on this. This is one of those big 
concerns.
    And I would point also the gentlewoman back in September 
there was a criticism from the SIGAR focused on a $236 million 
USAID program called Partnership Contracts for Health. In 
fairness, USAID denied that they were giving money directly to 
the government, but SIGAR said that there was a--I don't want 
to put words in their mouth, but it obviously caused them great 
concern. So this is why we have a special inspector general; 
they get to go in and be objective, and they don't come back 
with glowing reports.
    Let me recognize the gentlewoman from Wyoming, who has been 
waiting patiently, Mrs. Lummis, and we will go from there. 
Thank you.
    Mrs. Lummis. Thanks, Mr. Chairman.
    Mr. Sampler, I want to go back to a response you made to 
Mr. Mica and ask you to elaborate a little. What did you mean 
by increasing the Afghan capacity to spend our money?
    Mr. Sampler. Yes, ma'am. There are multiple ways to achieve 
development objectives in Afghanistan. If it is, again, health, 
to use that example, if the goal is to innoculate children, we 
can do this directly through NGOs very effectively. But that 
doesn't get us out of the business of supporting Afghanistan 
and it doesn't reduce their donor dependency. So----
    Mrs. Lummis. Why not? Why not?
    Mr. Sampler. Because we are doing the work ourselves, 
rather than teaching the government of Afghanistan how to do 
it. It is complicated and it requires mentoring. So when I say 
increasing their ability to spend our money, the government of 
Afghanistan ministries have underperformed, over the past few 
years, with respect to budget execution. Money that they have 
in their budgets and that the government of Afghanistan, in 
their fledgling attempts to allocate budgets and resources, 
they haven't been able to spend it----
    Mrs. Lummis. Okay. Now, Mr. Sampler, I am going to 
interrupt you just because I have to go to my constituents, and 
when they find out that we are giving money for aid in 
Afghanistan, and these are people in my State who have been to 
the Pine Ridge, South Dakota Oglala Sioux Reservation. Some of 
them have been to Detroit since it has gone bankrupt and whole 
buildings are being occupied by people with drug problems and 
communities are deteriorating in this Country. They have seen 
the grinding poverty among some Shoshone and Arapaho on the 
Wind River Indian Reservation in Wyoming and elsewhere.
    How can I tell them that we are working so hard to increase 
the capacity of the Afghan government to spend our money when 
the response I am going to get is why would we increase the 
Afghan government's capacity, a government that you acknowledge 
is untrustworthy and corrupt, when we have uses here in this 
Country where there is grinding poverty right before our eyes 
in American cities, around American Indian reservations? I am 
having trouble answering that question, so help me answer that 
question. Assume that I am your constituent.
    Mr. Sampler. Yes, ma'am.
    Mrs. Lummis. And you have to respond.
    Mr. Sampler. Again, I go out every chance I get, back to my 
home State of Georgia, and have exactly these conversations 
with businessmen at home, to include my dad, and the challenge 
is if we don't do it right in Afghanistan, we may find 
ourselves having to do it again in another 12 years. Someone 
has to secure the space of Afghanistan; it is an incredibly 
wild country.
    Mrs. Lummis. It is. I have been there. I have been there 
with the gentleman from Vermont at the end of the table, and we 
were out in Kandahar Province and we saw--the U.S. had rebuilt 
the third holiest Muslim site in Afghanistan in a remote area 
in Kandahar Province because their own people, in a civil war, 
had destroyed their own religion's third holiest site. So we go 
and rebuild it, and then we have Army Rangers Special Ops 
people out there, Americans, trying to defend it from being 
destroyed again by Muslims in their own country. It just defies 
logic to me that that is how we are spending our money.
    Again, try to help me explain that.
    Mr. Sampler. Yes, ma'am. The question of corruption is one 
that I think deserves a lot of attention. It is perhaps the 
single greatest challenge that we are facing. And the point 
that I make when I go out to speak to constituents is that, in 
my opinion, in developmental theory, the best way to combat 
corruption is strong institutions. Again, in 2002 there were 
not even strong, solid buildings, never mind strong, solid 
institutions. The work that we are doing with the government of 
Afghanistan is intended to build institutions that will help 
them fight corruption themselves; it is not something we can 
fix overnight, but it is something that we are determined to 
fix.
    Mrs. Lummis. Do you think a corrupt government can be 
taught to be honest?
    Mr. Sampler. I am not sure if I would answer it that way. 
Instead, let me offer this. On your next trip out, meet with 
the ministers and the people they get up, but also ask to meet 
with some of the young Afghans. The ministries now are 
populated by Afghans from 25 to 35 years old, and they don't 
have to be taught to be honest. In my opinion, the vast 
majority of them, they are patriotic, because they could be 
working for me at the U.S. Embassy; they are college educated, 
they have been abroad, but they come back and choose to work in 
their ministries for a lower salary because they want 
Afghanistan to succeed. They don't have to be taught to be 
honest; they don't have to be taught to be patriotic; they just 
need a chance.
    Mrs. Lummis. Thanks, Mr. Sampler.
    My time is up and I yield back, Mr. Chairman. Thanks for 
your indulgence.
    Mr. Chaffetz. I thank the gentlewoman.
    I now recognize the gentlewoman, Mrs. Maloney, for five 
minutes.
    Mrs. Maloney. I thank the chairman.
    Are either of you spending much time in Afghanistan? Are 
you there, are you up here? Where are your offices?
    Mr. Johnson. The GAO does have a permanent presence in 
Afghanistan. I actually have three members behind me who 
actually staff that presence for about six months each, and we 
currently have a staff of six people, three people there for 
six months. I have made multiple visits to Afghanistan, as well 
as Pakistan just across the border.
    Mrs. Maloney. What about you, Mr. Sampler, have you spent 
much time there?
    Mr. Sampler. Yes, ma'am. I go about every 60 days. I expect 
to go at the end of the month. I lived there for about three or 
four years.
    Mrs. Maloney. Are you hopeful? Are we making progress 
there?
    Mr. Sampler. That is a great question, and thank you for 
asking it. In some areas we absolutely are; in other areas we 
are facing still difficult challenges. But I am cautiously 
optimistic.
    Mrs. Maloney. Well, I think many of our concerns, and I 
want to echo my colleague on the other side of the aisle, we 
agree on a lot of things on women rights and we agree on this, 
that it is hard to finance an area that is so disgustingly 
corrupt, and it is again and again and again and again. 
Probably the biggest example was the Kabul Bank, which was once 
Afghanistan's largest private bank.
    But by the time it reached near collapse in 2010, the Kabul 
Bank had been looted by $935 million primarily by 19 
individuals and companies, including the Bank's ex-CEO. These 
two figures only received five years in prison, and they are 
now appealing it. So when you see that type of action, I am 
concerned about USAID's bank accounts over in Kabul. Do you 
feel like your money is secure over there?
    Mr. Sampler. Yes, ma'am. Kabul Bank has come up a couple 
times, so let me just make a couple points. We lost no U.S. tax 
dollars in Kabul Bank. We did not have any money in that bank. 
USAID did not have any money in that bank.
    Mrs. Maloney. But we do now, don't we?
    Mr. Sampler. We do not. We have a relationship with the 
Kabul Central Bank, which would be analogous to our Federal 
Reserve. Kabul Bank would be perhaps a State bank in one of the 
States. Kabul Bank was an Afghan-on-Afghan crime, and our 
outrage is shared and exceeded, perhaps, by the Afghan 
depositors who lost their savings. We are still, in fact, 
working with the government of Afghanistan to pursue the 
culprits who were associated with the Kabul Bank fiasco.
    Mrs. Maloney. Well, we are facing the same challenge, 
really, over in the Ukraine, where it has been reported that 
$88 billion is missing from the prior government, and we are 
getting ready to send a billion over of uncapped aid. So the 
question really is what safeguards do we have that our money 
actually gets to the people and the causes that we want. In 
terms of the Ukraine, reported in the press is that even IMF 
loan guarantees, the loan guarantee money came in, they 
immediately took $23 billion and sent it offshore. So how can 
we really make sure that it is going for the purposes that we 
want to help in Afghanistan, Ukraine, or anywhere?
    Mr. Sampler. Yes, ma'am. The situation in the Ukraine is 
different and I can't really speak to that, but in Afghanistan 
we projectize our money. The USAID money that goes to 
Afghanistan does not go to the government of Afghanistan. But 
we work with a particular ministry or a particular office in 
that ministry to achieve a particular project; and we identify 
either milestones that must be accomplished for particular 
payments or accrual of payments.
    Mrs. Maloney. I want to mention contracts, because 
historically our private sector and public sector are very 
strong when they work together. And when contracts were offered 
in Afghanistan to the private sector, what I heard, it was 
impossible for an American company to ever win one because we 
didn't bribe and we weren't corrupt. One of my constituents 
told me he bid on a copper plan, copper mine, managing it. His 
RFP or his proposal ended up in a competitor's hand that then 
won the contract. The competitor then did not even know what to 
do with the cooper mine and came back and tried to hire him.
    So when you see this type of corruption, which I think is 
very shortsighted on behalf of the Afghan government, if they 
had allowed American business to be fairly treated, then they 
would be there helping the country. But what happened is an 
American business could never win a contract and then our 
servicemen and women had to risk their lives protecting 
contractors that came in from other countries who hadn't 
invested a dime in helping the country. So something is very 
wrong with that equation and I really am disturbed by it.
    Mr. Sampler. Yes, ma'am. On the issue of tenders, when the 
Afghans are able to capitalize on the mineral wealth, I think 
it will be a good day for Afghanistan. We are working 
aggressively, the Ministry of Mines and Petroleum, which is the 
ministry here in question, I believe, to make sure that they 
have a capacity to do business in ways that western 
organizations understand. That has not been the tradition for 
decades, if not centuries. It has been a very patriarchal 
society and a very----
    Mrs. Maloney. But, Mr. Sampler, what I would like to point 
out is we spent billions in treasure and life----
    Mr. Sampler. Yes, ma'am.
    Mrs. Maloney.--and commitment, and then this country, what 
I was told by American businessmen, they were incapable of ever 
fairly winning a contract. Their applications were given to 
their competitors. I know American businessmen who run around 
the world giving speeches against investing in Afghanistan. So 
you know the stupidity of the country, but also the stupidity 
of our Country in that we are financing everything and 
protecting foreign investors who bribed and got the contracts, 
and yet American businessmen and women were not successful.
    What can we do to allow American businessmen and women to 
have a fair shot at a contract in Afghanistan? I guess now they 
don't even want to try, but I think, going forward in other 
areas that we are involved, we were not only paying the bill 
protecting everybody, losing American lives, spending a 
trillion a day or whatever it was, but other countries came in 
and benefitted from everything that we did, yet American 
business and investment could not. Now, there is something very 
wrong with that equation.
    Mr. Sampler. Yes, ma'am.
    Mrs. Maloney. It is not a winning strategy, to say the 
least.
    Mr. Sampler. The goal will be institutions in Afghanistan 
that are transparent and educated, capable and competent, and 
we are not there yet.
    Mrs. Maloney. Okay.
    Mr. Chaffetz. I thank the gentlewoman.
    I will now recognize myself for five minutes.
    Mr. Johnson, I want to go back about the idea, talk about 
is the U.S. Government contributing and funding payments to the 
Afghan government. You issued a report in 2011. What is your 
perspective on this?
    Mr. Johnson. Chairman, if you are referring to our report 
on the direct assistance, we did find situations where the U.S. 
Government and USAID, as well as DOD, were providing money 
through trust funds, and that is the Afghan Reconstruction 
Trust Fund, which Mr. Sampler noted, would be sort of an on-
budget type of assistance that the Afghan government could have 
somewhat some say-so control in, as well as through LOFTA, 
which DOD managed. So there was quite a bit of money that was 
going through that route.
    Mr. Chaffetz. So you wrote in this report, ``The United 
States and other donors funded about 90 percent of Afghan's 
estimated total public expenditures from solar years 2006 to 
2011. Of the 90 percent, the United States provided 62 percent 
of total expenditures.'' Is that correct?
    Mr. Johnson. The U.S. has been the predominant funder of 
expenditures. I would note that the bulk of our expenditures 
were in the security sector. We were close to about 40 percent, 
but we were the largest contributor for the non-security sector 
as well. But altogether there was the international community 
contributed slightly more in a cumulative, if you added it all 
up, but we were quite a substantial contributor, as was noted.
    Mr. Chaffetz. So another way of saying it is of the public 
expenditures by the Afghan government, they collect, the 
Afghans, only collect about 10 percent, a very rough number, 
about 10 percent of what they are able to spend, correct?
    Mr. Johnson. Bulk of the money at the time was off-budget, 
so they didn't really have visibility into the funding until 
the decision was made to go more direct assistance, and then 
there began to be an increase in the amount of money to go to 
enable the Afghan government to do two things, to fund their 
local operations, as well as pay their own salaries through the 
direct assistance route and build their capacity.
    The issue we had when we sort of not cautioned against it, 
but highlighted, there needs to be controls in place before you 
try to do the two things at the same time, and that is where I 
talked about doing pre-award risk assessments and, more so, 
mitigating against the risks you have identified, which we have 
seen happen in other parts of the world, across the border in 
Pakistan, for example, a similar situation pretty much where we 
were trying to go the direct assistance route, but in those 
situations we found they were actually embedded in the 
contract, cooperative agreements, bilateral agreements, as well 
as embed folks in the ministries to ensure that there was 
accountability of our funds.
    Mr. Chaffetz. So to suggest that the U.S. Government does 
not give money directly to the Afghan government, how would you 
react to that?
    Mr. Johnson. I would say that is not totally true that 
money has not gone directly to the Afghan government for them 
to have on budget to expend.
    Mr. Chaffetz. Let me find this issue. I want to come back 
to this because, Mr. Sampler, you go way out of your way to try 
to suggest to us that none of the U.S. taxpayer money is going 
to the Afghan government.
    Mr. Sampler. Congressman, USAID does not give money 
directly to the U.S. Government.
    Mr. Chaffetz. You mean to the Afghan government?
    Mr. Sampler. I am sorry.
    Mr. Chaffetz. You said U.S. Government. To the U.S. 
Government.
    Mr. Sampler. I apologize. Let me restate it. USAID does not 
give money directly to the Afghan government. That was what I 
meant to say, and I hope I have said it consistently.
    Mr. Chaffetz. You have. I have great concern about that 
statement, but we will have to continue to sort that out. You 
said at one point we control the bank accounts. Explain that to 
me. And I want to set the context here. We are going to be 
spending more money than ever; our troop levels are coming 
down; we are going to have less security in place to actually 
do the verification and to get out in the field and go see 
these types of things. Those things just don't add up; they are 
going in the wrong directions. I mean, it was bad before. When 
I was there and we were at near our peak of when we had the 
number of troops on the ground that we could protect our 
people, they still complained in the offices that they couldn't 
go out and see these projects.
    When I was there, they couldn't let me go out and see these 
projects. I asked to go see them. I couldn't get out there and 
go see them. When I talked to the inspectors, they couldn't get 
out into the field everywhere that they wanted to go. And when 
I talked to the USAID people, who are just great, brave, 
patriotic people in the most difficult of situations, they said 
we can't get out and see these projects.
    How is that getting better? It seems like it is going to 
get worse.
    Mr. Sampler. Congressman, this is a problem that has been 
coming for some time. They have been closing PRTs for two years 
now, and, in fact, they are mostly gone, so this isn't 
something that we are suddenly waking up and realizing we need 
new mechanisms for monitoring programs. What we have done is, 
building on expertise in Pakistan, 12 years in Afghanistan. I 
have personally worked in both Afghanistan, Pakistan, Yemen, 
Colombia, West Bank, Gaza, places where we have had to 
supervise programs, and yet we cannot, on a regular, 
predictable basis put U.S. direct-hire boots on the ground, we 
have developed alternative mechanisms that I will argue are 
good.
    The lessons learned from Iraq on this is don't rely on one 
source of information; do rely on local communities, because 
they are the beneficiaries of these, and if it is not right 
they will tell you. Focus on finding ways that are 
technologically innovative and different to validate programs. 
So it is not that we have a way to fix these things; we have a 
new office, the Institutional Support Unit, who are responsible 
for, in a very cold and deliberate way, analyzing all the 
inputs about a particular program and saying does this meet our 
requirement. If it meets the requirement, then we will make a 
decision; if it doesn't meet the requirement, then we suspend 
or terminate the program.
    Mr. Chaffetz. Mr. Johnson, your ability, the ability of the 
SIGAR to get out and be able to actually see and verify, there 
are reports after reports after reports of mismanagement of 
funds, overpaying funds. There was one we were paying $500 a 
gallon for fuel. When you go out and spend $100 billion, there 
is going to be some waste, fraud, and abuse. It is just 
inevitable, particularly in the difficult circumstances that 
are Afghanistan. I don't expect it to be perfect, but I do 
expect that we get better at this. And the disconnect for me is 
we are spending more money with less personnel and less safety 
and security.
    There is no doubt a ton of good that USAID has done and 
will do in the future, but how in the world are we possibly 
going to oversee the proper expenditure of $20 billion in this 
type of atmosphere?
    Mr. Johnson. That is definitely something that is going to 
challenge all U.S. agencies, including USAID and the oversight 
community, with the withdrawal of the combat troops, and any 
other security forces if that is not mitigated in advance. I 
think that is something we all have to plan for.
    Mr. Chaffetz. But what do you see, from your objective 
point of view? Were they even achieving that before, when we 
had the maximum amount of security?
    Mr. Johnson. It was definitely a challenging environment 
for us to do oversight, as well as for the agencies to carry 
out their missions. I think there are other examples, other 
models, as Mr. Sampler alluded to. If we can't go out directly 
and oversee the projects ourselves, there are other means by 
which you can mitigate those things, using global imaging 
systems, things of that nature; not just relying on your NGOs 
and the implementing partners to bring you data and provide 
progress reports, but also using photographs, media reports, 
other things that you can use to validate what you are 
receiving from the folks you are giving money to to carry out 
the program. So you need to have multiple ways of validating 
what you are getting from the folks you are paying.
    Mr. Chaffetz. I agree. We have asked in previous instances 
can we just see a photo of what we built, can you provide a 
photo. Couldn't even do that.
    Mr. Johnson. Mr. Chairman, if I can just note. Some of the 
work we did on the other side of the border, we found that that 
was being done, and even on the Afghan side, data was being 
collected by USAID; however, a lot of the data was not being 
retained or documented. So that was part of the gap. So I think 
we made recommendations in that area. We were happy that, later 
on, we saw that those recommendations were addressed back then 
and that things were done to document it. We have not looked at 
that issue in a couple years with respect to documentation, but 
that was a weakness previously.
    Mr. Chaffetz. If you could, that would be great.
    I have gone way over time. I will now recognize the 
gentleman from Massachusetts, Mr. Tierney.
    Mr. Tierney. Thank you.
    I think this last series of questions sort of got to the 
nub of it, what we are talking about on this. So the first 
determination is ours, it is the policy decision of the United 
States' national security interest to continue giving aid to 
Afghanistan there or not there, right? And that is our issue, 
not yours, on that. And from what I understand, the things that 
we are now providing money for through USAID are agriculture, 
governance, rule of law, and trying to increase the economic 
growth of that country. So we have to determine that those 
missions are in fact in the United States' sufficiently, our 
national security interests, that we want to keep putting money 
into that. And we have, at least to date, done that because 
there is money going out and you are in charge, Mr. Sampler, of 
doing that.
    Let me say people have been pretty pointed with you this 
afternoon. Whether people up here agree with what is happening 
out there or not, I hope you don't take it personal on that. 
And I want to tell you that you are and have been an excellent 
spokesman for your agency. We need people to believe in their 
mission. Some people up here may not think it is a good 
mission, bad mission, whatever, but it is something that our 
Government has asked you to do; and if they send you out there 
and somebody is totally cynical and not doing it for the right 
reasons, then we are not being well served. And you, sir, I 
think are fully committed to what you are doing, and I want to 
thank you for it. I appreciate it. And your staff that is with 
you as well. Know that.
    But it is our job to look at this and then say, well, fine, 
we have committed the money, so the next question is how do we 
do it. How do we do it to bring us back some assurance that 
there is accountability, that the money just isn't going off 
into the ethos somewhere. So we want to talk about the amount 
that we give, the manner in which it is given, how we account 
for it, and we want to document that it has been to the benefit 
of our Country, as well as the country that is on the receiving 
end of it.
    And that is what today's hearing has been about and, 
fundamentally, at the very end of it we are sort of honing in. 
If we don't have security sufficient to take us to where these 
projects are, whether it is a far-flung agricultural project or 
even rule of law issue in a remote province somewhere on that, 
how do we know it is happening? Or if we are building a school 
someplace, how do we know that it is functioning properly and 
that it has been constructed well?
    In Pakistan we had one problem of having too few USAID 
people to actually monitor it even when they could get to a 
location. So it turned out that what we discovered was we were 
oftentimes taking the recipient of the grant, a not-for-profit, 
and then asking them how did they do; and remarkably they all 
thought they were doing pretty darn well. So that obviously 
wasn't an effective way to do it.
    Mr. Johnson has now told us there are other methods that 
you are looking at. One of them is to take visual images on 
that. But I do have to say we spoke a little bit earlier in the 
questioning about people on your staff taking visual images of 
things but not really having great images because of the 
technology that they were limited to and the process. But that 
is one of the very things that we are now going to count on to 
tell us that things are going well. So that has some questions 
raised right there, right?
    Mr. Sampler. Congressman, first of all, thank you for your 
kind comments.
    The photographs that we take with our cell phones are not 
meant to document, they are not meant to be documents of 
record.
    Mr. Tierney. So you have another kind of photograph that 
you are taking for proof of something happening in an area that 
you cannot physically get to?
    Mr. Sampler. As an example, one of our monitoring partners 
has a set of cell phones that have very high digital resolution 
cameras and a built-in GPS and a date/time stamp. So if they go 
out to take photographs of a school or photographs of another 
project, we not only know where they were and when they were 
there and what the photograph is of, but even which direction 
the camera is facing.
    Mr. Tierney. And this partner is a private partner or an 
Afghan national, or who may it be?
    Mr. Sampler. It is an international private contractor who 
uses local Afghan subcontractors to do the work.
    Mr. Tierney. All right. And they have been vetted to our 
satisfaction?
    Mr. Sampler. They have. We have a vetting program that is 
pretty aggressive and they have been vetted before the contract 
was let.
    Mr. Tierney. All right. So, of course, a further part of 
that is it is one thing to build a structure, it is another 
thing to be able to complete the inside of it, staff it 
properly, and get a product out of it. So those things still 
remain a challenge, I would think.
    Mr. Johnson, once we build a school, how do we make sure 
that it is functioning if we don't have the security to go out 
there and physically do it? Do we have a solution for that type 
of issue?
    Mr. Johnson. I think there have been situations and, again, 
some of this goes back to the security environment. If we build 
a school, what the security environment allows for it to be 
used, and that is an issue where, in advance, you should have 
studied that, you made that determination before you invested 
the U.S. dollars. I think there have been a few situations 
where that may have occurred.
    But I think, getting back to an earlier point that was made 
that Mr. Sampler pointed out, and I am quite pleased to hear 
sort of the imaging that is being taken. If there is some GPS 
tracking embedded, there is some date stamping, that is one of 
the things we felt like was needed, when you have the evidence, 
but you need to document it better, that we see would enhance 
the capability of USAID to show or have proof in its records. 
This all goes back to the knowledge transfer, having 
institutional knowledge. I mentioned the turnover ratio that 
takes place. When the next person comes in, they will have that 
evidence there and know how to build on that and use that to 
make future decisions.
    Mr. Tierney. The whole validation issue is a problem for 
us. I go back to Pakistan again only because we had some 
concrete examples. In fact, I think the inspector general's 
report out of the whole Iraq process helped us with Iraq. I 
think some of our experiences in Pakistan helped us look at 
this. But in Pakistan, where the premise early on was to give 
the money to the government and then take the receipts and 
check the receipts, we were getting great receipts back. I was 
just telling the chairman here that we spent millions of 
dollars fixing 35 helicopters and had the receipts for them, 
and the money was approved and sent. When we went there on the 
ground and asked to be taken to those helicopters, funny thing 
is none of them could fly on that. So I don't know how you get 
beyond that, but that is a concern that we have, is who is 
validating those receipts beyond just having an Afghan partner 
come up and say here are the receipts, we really did this work. 
How does that work?
    Mr. Sampler. Congressman, if I may, technology helps us. 
And I will use the school example because, in developing 
countries, schools are often a way that a government is able to 
spread the largesse in ways that are not necessarily above 
board, by ghost teachers or ghost schools. In Afghanistan, if 
we build a school and we wish to validate whether the school is 
functioning properly, we don't ask the Ministry of Education 
and we don't ask the teachers; we can ask the community. And, 
again, that is why these independent monitoring contracts are 
valuable, because they can go and have a local shura meeting 
where they talk to the community and say are you getting what 
you want from this school.
    If they are not, the community may not stand up and waive 
their arms and draw attention to themselves, calling out 
corruption within the Ministry of Education, but before the 
monitoring unit leaves town, very often they will pull them 
aside and say they don't have 20 teachers at that school, they 
have 3.
    So we have SMS technology that we can use for things like 
that. We have independent contractors.
    And, Mr. Chairman, to your point earlier, even if you gave 
me back 100,000 troops on the ground, the security situation 
would do what it is going to do, but I would still use the 
multiplicity of monitoring techniques that we have developed 
over all these countries and over all these years because, 
again, one of the lessons from Iraq was do not depend on a 
single point of reporting; require multiple reports, and in 
that there are discrepancies, find out where the discrepancy 
is. And that works independent of the number of international 
or U.S. troops on the ground.
    So that is the reason that I have some level of confidence, 
going forward, that we are focusing on the right things. We 
haven't fixed all the problems yet, but we are focusing on the 
right things to fix them.
    Mr. Tierney. Thank you for that, Mr. Sampler.
    So we have a requirement that we have a separate bank 
account established for each project when we do it, is that 
correct?
    Mr. Sampler. That is correct. We monitor the accounts and 
control the funds.
    Mr. Tierney. And are we depositing that United States 
assistance into the Central Bank?
    Mr. Sampler. Congressman, I don't think so. I think it goes 
into whichever commercial bank we have identified with that 
ministry will be the repository of those funds, much like an 
escrow account would be here in the States.
    Mr. Tierney. And so we do have actual physical oversight of 
that account, it is not a question of going off to the Central 
Bank and then we are relying on an international organization 
with limited oversight capacity.
    Mr. Sampler. It is not. We do not have to go to the 
government of Afghanistan and ask to see our bank accounts.
    Mr. Tierney. Thank you.
    So I will just wrap up here again, just reiterate what I 
said about both of the gentleman that are testifying here today 
and their staffs. We know you are committed and that you are 
out there and you are working very, very hard. We appreciate 
it. Our job is to keep this oversight up.
    Mr. Chairman, thank you for having this hearing, again. As 
long as we make the policy decisions about having this kind of 
aid and assistance go out there, then it is our responsibility 
to have you oversee it and implement it, and our responsibility 
to make sure that you are doing that as much as we can. I think 
a lot of this is going to be, in the long-run, as long as we 
decide to do that, whether or not it is working and what are 
the results. I guess there is no real system we can set up that 
is pay for success, because some of this money has to be put 
out in order to get that success, but I think we have to 
regularly and steadfastly oversee it and make periodic 
assessments as to whether or not this is a risk worth taking 
and whether our national security interests are being furthered 
or not by that.
    So I thank you, and thank you again, Mr. Chairman.
    Mr. Chaffetz. Thank you. I appreciate your ongoing concern 
about this issue.
    Let me just wrap up here. I want to hit just a couple 
different things.
    I am concerned about the automated directive systems, 
Chapter 593. This prevents the GAO from removing sensitive, but 
unclassified materials from USAID's secure workspace facility, 
even if it is needed for official auditing purposes.
    We trust the GAO. They may be sensitive, but they are 
unclassified. We expect, I think, auditors to be able to have 
unfettered access. I don't know that that policy or directive 
is consistent with the law. We are going to go back and look at 
that.
    Does USAID provide classified materials to GAO?
    Mr. Sampler. Congressman, to the best of my knowledge, we 
do. Again, to reiterate, we provide all the information that 
they ask for, that any of the oversight bodies ask for.
    Mr. Chaffetz. But I don't think that is true.
    Mr. Sampler. Not always in the form of a document that is 
actually released in an unredacted form.
    Mr. Chaffetz. We are not asking to release it. Auditors 
ought to be able to see whatever they want to see.
    Mr. Sampler. Absolutely.
    Mr. Chaffetz. But what you said is in direct contradiction 
to that.
    Mr. Johnson, is this the case? Explain to me what happens. 
When you want to see something that is sensitive, but 
unclassified, what happens?
    Mr. Johnson. Well, I guess I would start by pointing out 
that this is not always the case. It happens in a few 
situations. We are required to come up to a reading room in 
some cases, and that does put a strain on our resources and 
becomes more costly for us, as well as USAID.
    Mr. Chaffetz. And the subjective nature to that, the 
inconsistency of that causes me concern. Even the documents 
that have been provided to Congress have had redactions in them 
that I think were uncalled for. It is something we are not 
going to sort out in the last few minutes here; it is an 
ongoing concern.
    Mr. Johnson, if there are any particular documents that you 
specifically need in your possession to do your job--and I am 
saying that broadly for GAO--I would like to know about it if 
you can't resolve that directly with USAID. But the principle 
here is an important one. We are supposed to allow the auditors 
to come in and see what they want to see, particularly if 
documents may be sensitive, but they are unclassified.
    And I do have a problem if GAO or somebody was releasing 
information that is going to put somebody's bodily harm in 
their way, but this is not the only agency that they work and 
engage with; there are some pretty darn good sophisticated 
policies over a host of agencies, it is not just USAID. I mean, 
they do this for every department and agency, essentially. So 
it is something that I would appreciate your working on and we 
will pay attention to to make sure that we are making progress 
on that.
    Number two, I do think my ranking member here, Mr. Tierney, 
I do think it would be helpful to have Mr. Sopko come here, as 
well as Mr. Shah, and do so together to talk about this broader 
context. It is something that I look forward to doing, and we 
will have to get on the calendar so we can appropriately 
schedule specific to Afghanistan, but also be able to talk 
maybe a little bit broader, certainly with Mr. Shah. I find him 
to be very responsive when I have wanted to chat with him 
before, and I think it would be a healthy hearing, particularly 
as we talk about Afghanistan. We are talking about $100 billion 
that we have spent, so I look forward to doing that as well.
    And one thing that Mr. Tierney has persuaded me, I think, 
over the course of time here is the need for internal 
competency at USAID. We have a lot of great passionate people. 
Nobody is questioning your commitment to the mission here. We 
were chatting here while some other members were asking 
questions. Mr. Sampler, in particular, we appreciate your 
passion. You can tell you believe in the mission and what you 
are doing, and I think you for your military service, as well 
as your service to USAID.
    But we can't just always rely on third-party vendors all 
the time. The mission of USAID is not we can't just flip a 
switch on and off. Hopefully we are not engaged in prolonged 
contracted military engagements over a long period of time, but 
there does need to be a bank of wisdom that we gain, and that 
we just don't go out and hire, let's go find another vendor; 
because we should learn from Iraq. We have to learn from 
Afghanistan if we are going to do this better in other 
countries, in Africa and all across the world.
    And I would join Mr. Tierney in the support of making sure 
that that core competency is developed over a long period of 
time in a broad range of people. I think that pendulum swung 
one direction and then it swung over here to say, oh, let's 
just contract it all out, but this is probably one agency where 
you need an internal core competency.
    One quick question, then we are done here. How many USAID 
personnel do we have in Afghanistan at this time?
    Mr. Sampler. Congressman, the last time I saw a formal 
report, it was 138. We will, by the end of this year, be down 
to between 100 and 110. And to put that in context, in 2012 I 
was up at 387. That is U.S. Government direct hire U.S. 
employees.
    Mr. Chaffetz. Again, maybe you could get back to me on this 
or maybe Mr. Shah could help me answer this, Administrator 
Shah. We are spending more money than we ever have before. We 
are drawing down not only the security personnel, but the 
people on the ground if we are having roughly a third, right, 
of what we had at its peak. I don't know what the proper ratio 
is, but we are going to spend $20 billion.
    My State of Utah, we spend about $13 billion in an entire 
year. We have 22,000 State employees, and here we are going to 
spend $20 billion over it is hard to tell what time period and 
we have just over 100 people trying to administer that. I just, 
physically, I don't understand how that would work. But if you 
could help us clarify that.
    Again, Mr. Johnson, Mr. Sampler, the people, the support 
staff that is here, I thank you for your passion and your work. 
It is vital, it is important. America, as I said at the 
beginning, has invested lives, treasure. It is a very, very 
important mission. I appreciate your passion on this. This is 
enlightening. There is more information that we would like to 
glean from you, but we again thank you for your service. We 
thank you for your patriotism, and God bless those men and 
women who are actually out there on the front lines in these 
difficult situations doing the great work. Please let them know 
how much we love and care for them and wish them nothing but 
the best of success.
    With that, we will adjourn this hearing today. Thank you.
    [Whereupon, at 4:15 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
